 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


          PROCESSING OF
    MINERAL PATENT APPLICATIONS
BY THE BUREAU OF LAND MANAGEMENT
  AND THE OFFICE OF THE SOLICITOR

              REPORT NO. 01-I-356
                  MAY 2001
U.S. Department of the Interior                                     Office of Inspector General

                               EXECUTIVE SUMMARY

                         Processing of Mineral Patent Applications
                          by the Bureau of Land Management and
                                  the Office of the Solicitor
                                    Report No. 01-I-356
                                         May 2001

The General Mining Law of 1872, as amended, opened public lands to the exploration and
extraction of valuable minerals, such as gold, silver, and copper. The General Mining Law allows
miners to prospect for minerals and file mining claims for the right to use public land for mineral
development and extraction. A mining claimant may apply for a mineral patent, which conveys a
fee simple title to the claim if the claimant has discovered a valuable mineral deposit and meets all
of the patenting requirements of the General Mining Law. The Secretary of the Interior makes the
final determination as to whether a patent applicant has met all of the requirements and has
discovered a valuable mineral deposit.

The Interior and Related Agencies Appropriations Act of 1995 imposed a moratorium on
accepting and processing mineral patent applications, with some exceptions. Section 113 of the
Act excepted from the moratorium those patent applications (1) that were filed with the Secretary
on or before the date of enactment of the Act and (2) for which all the patenting requirements under
the Mining Law were met. These patent applications were considered "grandfathered," and the
Interior and Related Agencies Appropriations Act of 1996 required the Department to file a plan
that details how the Department will make a final determination on patent entitlement on at least 90
percent, or 352, of 392 grandfathered patent applications by April 26, 2001. The Congress
extended the time frame for processing these mineral patent applications to September 30, 2001
in the Interior and Related Agencies Appropriations Act of 1997.

We concluded that the Department of the Interior will not meet the September 30, 2001 date
mandated by the Congress for processing the grandfathered mineral patent applications generally
because the Bureau of Land Management did not initiate and complete a sufficient number of
mineral examinations to enable the Office of the Solicitor to complete its review of mineral patent
applications by the due date. According to Bureau figures as of June 30, 2000, 180 patent
applications remained that required processing or that were expected to be contested (subject to
a hearing on the validity of the mining claim) or withdrawn. We recommended that the Bureau of
Land Management and the Office of the Solicitor develop a time frame for completing the
processing of all remaining grandfathered mineral patent applications and provide this time frame
to the Congress by September 30, 2001.
AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

The Bureau of Land Management and the Office of the Solicitor concurred with the report’s two
recommendations and agreed to take the recommended corrective actions. Based on the
response, the recommendations were considered resolved but not implemented. In addition, in the
Bureau of Land Management’s February 14, 2001 response (Appendix 2) to the draft report,
Bureau officials provided updated mineral patent figures as of December 29, 2000. The Bureau
reported 398 total applications, which was an increase of 6 from June 30, 2000 attributable to
judicial and administrative actions. The Bureau also reported total cases of 197 requiring final
determination, or 177 cases at the Congressionally required 90 percent completion level. The
response from the Office of the Solicitor noted that 10 patent applications had been approved and
signed by the Secretary since the issuance of our draft report and that the Office had gained two
new attorneys to assist in patent application review.




                                               2
                                                                        C-IN-BLM-001-00-R


             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                                                                                May 23, 2001

                                 AUDIT REPORT
Memorandum

To:      Director, Bureau of Land Management
         Solicitor

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Audit Report on Processing of Mineral Patent Applications by the Bureau of
         Land Management and the Office of the Solicitor (No. 01-I-356)

                                 INTRODUCTION
This report presents the results of our review of the processing of mineral patent applications
by the Bureau of Land Management (BLM) and the Office of the Solicitor (SOL). The
objective of the audit was to determine whether BLM and SOL are processing mineral patent
applications in accordance with the plan the Secretary of the Interior was required to file
under the Interior and Related Agencies Appropriations Act of 1996. We conducted the
review based on Congressional inquiries about the timeliness of the Department of the
Interior’s processing of the mineral patent applications.

BACKGROUND

The General Mining Law of 1872, as amended, opened public lands to the exploration and
extraction of valuable minerals, such as gold, silver, and copper. Approximately 400 million
acres of public land are open to location of mining claims under the General Mining Law,
including BLM, U.S. Forest Service, and National Park Service lands. BLM administers the
mineral estate under the General Mining Law on all of these lands. The General Mining Law
allows miners to prospect for minerals and file mining claims for the right to use public land
for mineral development and extraction. A mining claimant may apply for a mineral patent,
which conveys a fee simple title to the claim if the claimant has discovered a valuable mineral
deposit and meets all of the patenting requirements of the General Mining Law.




                                               3
The Secretary of the Interior makes the final determination as to whether a patent applicant
has met all of the requirements and has discovered a valuable mineral deposit. If the
Secretary determines that a miner could economically extract a mineral deposit and that a
mining operation could be potentially profitable, the claimant has a "discovery," which is a
critical element for obtaining a patent. Processing a patent application involves two
significant procedures: (1) reviewing the patent application to ensure that it is complete and
is in compliance with statutory requirements of the General Mining Law and administrative
requirements of the Department of the Interior and (2) performing a mineral validity
examination to ensure that the geologic and economic evidence verifies the discovery. The
initial review of mineral patent applications is accomplished at BLM’s state office level with
assistance from the Regional Solicitor’s Office. The Regional Solicitor ensures that the title
is in good order, adverse claims have been addressed, and the application is complete. If the
application contains the required documents under the General Mining Law and is sufficient
to begin a mineral validity examination, a first half final certificate is signed by the Secretary.
After receiving the first half final certificate, BLM schedules a mineral validity examination.

A Certified Mineral Examiner conducts the mineral validity examination and prepares a
mineral report, which is then reviewed by the cognizant BLM state office. The report is then
sent to BLM headquarters in Washington, D.C., where a technical review is conducted to
ensure that technical standards are applied consistently. When a report is cleared by
headquarters, BLM forwards the report to SOL for a legal review. If it clears legal review,
it is transmitted first to the Assistant Secretary for Land and Minerals Management and then
to the Secretary of the Interior for signing the second half of the final certificate and for issuing
a patent.

The Interior and Related Agencies Appropriations Act of 1995 imposed a moratorium on
accepting and processing mineral patent applications, with some exceptions. Section 113 of
the Act excepted from the moratorium those patent applications (1) that were filed with the
Secretary on or before the date of enactment of the Act and (2) for which all the patenting
requirements under the Mining Law were met. When the moratorium took effect, 383 patent
applications were in process and 9 more were added as a result of litigation, for a total of 392
patent applications that were "grandfathered." The Interior and Related Agencies
Appropriations Act of 1996 required the Department to file a plan that details how the
Department will make a final determination on patent entitlement on at least 90 percent, or
352, of these grandfathered patent applications by April 26, 2001. The Congress extended the
time frame for processing these mineral patent applications to September 30, 2001 in the
Interior and Related Agencies Appropriations Act of 1997.

SCOPE OF AUDIT

To accomplish our objective, we interviewed officials from and reviewed records maintained
by BLM and SOL offices in Washington, D.C. Also, we contacted 37 of the 70 total BLM
certified mineral examiners, 1 National Park Service certified mineral examiner, and 5 Forest
Service certified mineral examiners who conduct mineral examinations and reviews to obtain
estimated completion dates for the applicable mineral reports.


                                                 4
We conducted our review in accordance with the "Government Auditing Standards," issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. In addition, we reviewed the Departmental Report on Accountability for fiscal
year 1999, which includes information required by the Federal Managers’ Financial Integrity
Act, and the annual assurance statements on management controls for fiscal year 1999 and
determined that there were no reported material weaknesses regarding the timeliness of the
mineral patent application process.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any audit reports on the
timeliness of the mineral patent application process. In September 1997, the Office of
Inspector General issued the report "Issuance of Mineral Patents, Bureau of Land Management
and Office of the Solicitor" (No 97-I-1300), which addressed BLM's initial review of patent
applications. The report stated that BLM did not generally meet its policy of initially
processing patent applications within 10 months. The report contained six recommendations
to improve the quality and timeliness of the mineral patent process and one recommendation
concerning cost recovery for mineral validity examinations. All of these recommendations
were considered resolved and implemented.

                              RESULTS OF AUDIT
We concluded that the Department of the Interior will not meet the September 30, 2001 date
mandated by the Congress for processing at least 90 percent (352) of the grandfathered mineral
patent applications. The process will not be completed generally because BLM did not
initiate and complete a sufficient number of mineral examinations to enable SOL to complete
its review of mineral patent applications by the due date. Based on its initial plan to complete
processing by September 30, 1999, BLM estimated that it would complete minerals
examinations of 70 applications per year. BLM, however, sent the SOL from 6 to 27 per year,
with an average of only 17 per year from September 30, 1994 through September 30, 1999.
At the conclusion of our audit (June 30, 2000), 180 patent applications were pending action.
This consisted of 138 applications requiring BLM action and 42 applications that were
awaiting completion of a legal review.

In July 1996, BLM prepared an initial report and action plan titled "Five Year Plan for Making
Final Determination on Ninety Percent of Grandfathered Patent Applications Pursuant to
Public Law 104-134 [The Interior and Related Agencies Appropriation Act of 1996]" and
submitted it to the Congress. At that time, BLM had 71 applications in process and planned
to process the remaining 281 applications at the rate of about 70 per year over 4 years, with
completion by April 26, 2001. In its budget justifications for fiscal year 1998, BLM revised
its estimated completion date for processing mineral patent applications to September 30,
2000. As of June 30, 2000, however, BLM officials stated that BLM had completed only
214 applications, leaving a balance of 138 requiring BLM action.



                                               5
The 214 applications processed by BLM consisted of 109 applications forwarded to the SOL
for further processing, 61 withdrawn from processing by the applicant, and 44 contested1 to
the Interior Board of Land Appeals. Of the 138 applications still in BLM, 30 are expected
to be withdrawn and 30 contested. BLM officials plan to submit the remaining 78 mineral
patent applications to the SOL by December 30, 2000. A BLM Mining Law Adjudication
Senior Specialist in the Washington office attributed the delays to the fact that some state
directors did not make processing mineral patent applications a high priority until fiscal year
1998. Consequently, mineral validity examination assignments were not given to field mineral
examiners in time for them to complete the work in accordance with BLM’s schedule.

According to BLM officials, as of June 30, 2000 the SOL had processed 67 of the
109 applications forwarded by BLM: 47 were signed for patent, 2 were contested, 1 was
withdrawn, and 17 were returned to BLM for further processing. The remaining
42 applications were pending the completion of a legal review. Overall, the SOL will need
to process the 78 applications expected from BLM plus the 42 applications already in the
office, for a total of 120 applications, with less than 15 months remaining in the
Congressionally mandated period.

Processing time for patent applications by the SOL ranged from less than 1 month to
41 months, with an average processing time of about 9 months for each application. The SOL
used an estimated equivalent of 5 full-time attorneys to process the 47 completed patent
applications over the 6 years, or an average of 7.8 patent applications annually. Officials from
the SOL said that they had not developed formal plans for completing the patent application
reviews because they could not be certain when they would receive the patent applications
from BLM. In a May 2000 meeting with our office, a staff attorney in the SOL’s Division of
Mineral Resources said that it is unlikely that the SOL would be able to complete the legal
reviews of the remaining patent applications by September 30, 2001 because of the large
number of applications expected to be submitted to the SOL during the final months of the 5-
year time frame. The attorney also said that the SOL would consider hiring new attorneys or
reassigning attorneys to help process the increased work load. In any event, BLM and the
SOL need to coordinate their efforts to expeditiously process the remaining applications.




1
 A contest is a hearing before an Administrative Law Judge to decide the validity of a mining claim. If the
Administrative Law Judge upholds the Bureau’s decision to contest the mining claim, the claimant can then
appeal to the Department of the Interior’s Board of Land Appeals, the U.S. District Court, the U.S. Court of
Appeals, and the U.S. Supreme Court. If the Administrative Law Judge holds in the claimant’s favor, the
Bureau may appeal the decision only to the Interior Board of Land Appeals.

                                                     6
Recommendations

We recommend that the Director of BLM and the Solicitor jointly:

       1. Develop a time frame for completing the processing of all remaining grandfathered
mineral patent applications.

        2. Report to the Congress the expected progress on processing grandfathered patent
applications by September 30, 2001 and provide the time frame for completing the project.

BLM and SOL Responses and OIG Reply

In the January 19, 2001 response (Appendix 1) to our draft report from the Deputy Associate
Solicitor, Division of Mineral Resources, SOL agreed with the report’s two recommendations.
The response also noted that 10 additional patent applications had been approved and signed
by the Secretary since the issuance of our draft report and that the Branch of Onshore Minerals,
within the Solicitor’s Office, has gained two new attorneys to assist in patent application
review.

In its February 14, 2001 response (Appendix 2) to the draft report from the Acting Director,
BLM, BLM also agreed with the report’s two recommendations. In its response (Attachment 1
to Appendix 2), BLM also included some suggested changes to the report, which we
considered and incorporated into the report as appropriate. We did not, as requested by BLM,
change the information in our report related to the progress BLM was making in processing
applications reported since June 30, 2000, the end of our audit fieldwork. We have included
information from BLM (Attachments 2 and 3 to Appendix 3) on the current status of its
processing of grandfathered mineral patent applications.

BLM and SOL officials subsequently told us that BLM’s Assistant Director, Minerals, Realty,
and Resource Protection, and the Solicitor are the officials responsible for implementation of
the recommendations in the respective offices. The target date for implementation of both
recommendations is September 30, 2001. Based on the responses and subsequent discussions,
we consider Recommendations 1 and 2 resolved but not implemented. Accordingly the
unimplemented recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation (see Appendix 3).

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required.

Section 5(a) of the Inspector General Act (5 U.S.C app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               7
    APPENDIX 1




8
    APPENDIX 2
      Page 1 of 5




9
     APPENDIX 2
       Page 2 of 5




10
     APPENDIX 2
       Page 3 of 5




11
     APPENDIX 2
       Page 4 of 5




12
     APPENDIX 2
       Page 5 of 5




13
                                                                  APPENDIX 3



      STATUS OF AUDIT REPORT RECOMMENDATIONS


   Finding/
Recommendation
   Reference          Status                   Action Required

   1 and 2       Resolved; not        No further response to the Office of
                 implemented          Inspector General is required. The
                                      recommendations will be referred to the
                                      Assistant Secretary for Policy,
                                      Management and Budget for tracking of
                                      implementation.




                                 14
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                       Internet Complaint Form Address


                     http://www.oig.doi.gov/hotline_form.html


                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   1-800-424-5081 or
Mail Stop 5341 - MIB                                  (202) 208-5300
Washington, D.C. 20240-0001
                                                      TDD for hearing impaired
                                                      (202) 208-2420



                    Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                       (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
            HOTLINE
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
